S

No. 20-5731
In The

Supreme Court of the United States

Brent L. Alford,
Petitioner
v.
Sam Cline, "et al",
Respondents

On Petition For Writ Of Habeas Corpus
To The Tenth Circuit Court of Appeals

MOTION FOR REHEARING IN BANC OR IN THE ALTERNATIVE
TRANSFER TO THE U.S. DISTRICT COURT

El Dorado Correctional Facility
Southeast Medium Unit
2501 W. 7th Street
Oswego, Kansas 67356

RECEIVED
DEC - 1 2020
OFFICE OF THE CLERK
SUPREME COURT u,S.

RECEIVED
MOV - h 2020
OFFICE OF THE CLERK
SUPREME CPURT U.S

Table of Contents
Pages
Statutory Tolling pursuant to 2244(d)(2)....................

1

Equitable Tolling under "actual innocence" exception

5

Conlusion............................................................. ......

8

Table of Cited Authorities Cited

t

Alford v. Cline. 2020 U.S. Dist. Lexis 90209.................. .......................

1

Alford v. Cline. 696 Fed. Appx. 87 (2017).............................................

2,8

Artuz v. Bennett. 531 U.S. 4 (2001).................................................

2,5

Carev v. Saffold. 536 U.S. 214 (2002)...................................................

4

Dallin H. Oaks, The Original Writ of Habeas Corpus, 1962 Sup. Ct. 153

9

Delhomme V. Ramirez, 304 F.3d 817 (2003)........................................

3

Ellis v. Harrison, 270 Fed. Appx. 721 (9th Cir. 2008)............................

4-5

Emerson v. Johnson. 243 F.3d 931 (5th Cir. 2001)...............................

3

Evans v. Chavis, 546 U.S. 189 (2006)...................................................
Gonzalez v. Abbott. 967 F.2d 1499 (11th Cir. 1992).............................

5
8

House v. Bell. 547 U.S. 518 (2006).......................................................

7

Hughes v. Mathews. 576 F.2d 1250 (7th Cir. 1998).............................

6

Hundley v. Pfuetze, 18 Kan. App. 2d 755 (1993)..................................

4

In re Davis. 557 U.S. 952 (2009)............

9

Kuhlman v. Wilson. 477 U.S. 436 (1986)

8

Logan v. Zimmerman Brush Co. 455 U.S. 422 (1992)

5

Morales v. Saboarin, 2004 U.S. Dist. Lexis 3415 (N.Y.S.D.)

4

Murray v. Carrier, 477 U.S. 478 (1986).............................

7

Rodrigues v. Bennett, 303 F.3d 435 (2nd Cir. 2002).........

5

Schluo v. Delo, 513 U.S. 298 (1995)..................................

6

Sieala v. Bravo. 656 F.3d 1125 (10th Cir. 2011)................

7

■*

\
Slack v. McDaniel, 529 U.S. 473 (2000)

7

Triestman v. United States. 124 F.3d 361 (1997)

8

Truelove v. Smith, 9Fed. Appx. 798 (10th Cir. 2001)...

3

U.S. v. Dieter. 429 U.S. 6 (1976).................................

4

U.S. v. Healy, 376 U.S. 75 (1964)................................

4

Weiblev v. Kaiser. 50 Fed. Appx. 399 (10th Cir. 2002)

5

Williams v. Gibson. 237 F.3d 1267 (10th Cir. 2001)....

3

ii

PURSUANT TO RULES OF THE SUPREME COURT RULE 44
The petition shall state its grounds briefly and distinctly.
Petitioner contends that the lower Federal Courts abused their discretion - based on the
failure to apply several tolling and grace periods allowed by the Antiterroism and Effective
Death Penalty Act of 1996, and violation of the fourteenth amendment right to due process.

The lower courts abused its discretion by not appling the following tolling provisions;
GROUND ONE (1) The automatic statutory tolling of 2244(d)(2), which applies to pending state
applications. Which in the present case consists of a motion to reconsider habeas petition, and
a separate notice of appeal. See Appendix D.
GROUND TWO (2) Equitable tolling under actual innocence, which applies here because
petitioner presented new reliable evidence in the form of two psychological/psychiatric
evaluations that was ordered by the court, but was never before the trial jury.
GROUND THREE (3) Statutory tolling under the rarely used 2244(d)(l)(B)'s tolling provision,
which a petitioner is entitled to if he was prevented from filing timely petition by state action.
This statute is relevant because the state never ruled on pending habeas application and never
appointed counsel for habeas appeal - which one or both could be considered a state created
impediment under 2244(d)(1)(B) which would allow tolling rights to the petitioner.
A district court abuses it discretion when its decision is (1) arbitrary, fanciful, or
unreasonable; (2) is based, on an error of law; or (3) is based on an error of fact, (citation
omitted).
EXTRAORDINARY INTERVENING CIRCUMSTANCE
In support of grounds (1 and 3); Six years after the U.S. District Court dismissed Alford's
petition on procedural grounds (time barred) the Kansas Court of Appeals ruled that Alford was
denied his statutory right to habeas counsel in his original petition. See Appendix G. Alford's
right to counsel was contingent on him filing a timely notice of appeal - which he did. Since
this was a properly filed state application, it was sufficient to evoke Alford's automatic tolling
iii

rights under 2244(d)(2). The courts remedy in Alford v. State, 395 P.3d 841 (2017), was to have
Alford reinstate his habeas appeal or seek relief under a separate state habeas petition. These
remedies constitute a continuation (reopening) of Alford's state habeas petition.
2244(d)(1)(B), comes into play by the fact that the state court failed to appoint counsel which prevented filing a timely federal petition. There also is a separate and distinct
impediment under this provision, where the state court failed to enter an appealable order on
state habeas petition. These are all record based facts that are behind the U.S. District Court's
ambiguous ruling - that Alford's petition may not be time barred. Appendix D.
The ruling does not afford certainty, because these grounds have never been addressed by
any federal court and because its liable to more than one interpretation. A transfer to the U.S.
District Court would allow the proper forum to address these tolling grounds and eliminate due
process and other constitutional concerns.
CERTIFICATION
I, Brent L. Alford, certify that pursuant to rule 44 of the Supreme Court that the grounds
stated herein are limited to substantial intervening circumstances. That the rarely used tolling
rights of 2244(d)(1)(B) has been overlooked and is a substantial ground not previously
presented. That these grounds have a controlling effect under the Antiterroism and Effective
Death Penalty Act of 19996, as to limitation time to file federal 2254.
Respectfully Submitted,

Brent L. Alford #57845, V-134

m

\J

OCF
2501 W. 7th St.
Oswego, KS 67356

IV

IN THE SUPREME COURT OF THE UNITED STATES

In re: Brent L Alford,
Case No. 20-5731

MOTION FOR REHEARING IN BANC OR IN THE ALTERNATIVE
TRANSFER TO THE U.S. DISTRICT COURT
Comes Now, the petitioner, Brent L. Alford, and asks the Court to consider a rehearing and
or transfer to the U.S. District Court having jurisdiction to determine facts he believes the Court
overlooked or misapprehended;
The Court over looked the fact that the U.S. District Court's last ruling stated "Alfords
petition possible may not be time-barred." See Alford v. Cline. 2020 U.S. Dist. Lexis 90209.
This standing alone and legally unexplained should not be sufficient to terminate or not
consider statutory tolling under 2244(d)(2). The Ballentine's Law Dictionary definition of
Possible is; liable to happen or come to pass; capable of existing or of being conceived or
thought of; capable of being done, not contrary to the nature of things.
An inference or presumption of law from the U.S. District Court's ruling, affirmative or
negative, in the absence of proof or until absolute proof can be obtained or produced of the
two possible constructions is premature. This is not a case where tolling rights were
extinguished or denied by law, but suspended by still having a probable chance of happening,
because the tolling analysis was never completed, which is susceptible of being revived.
Suspension of the
1

right to tolling fall within the protections of the Suspension clause. Transfer to the U.S. District
Court for proof of this particular fact is in line with due process and Alford's right to one
Federal
Habeas review. The transfer order will serve the function of removing the possibility that
Alford's petition was time barred, and decide or settle the controversy with finality. Without
any doubt.
Argument
Statutory Tolling Right Pursuant to 2244(d)(2)
There is no question that Alford filed his state applications within the (1) year limitation
period allowed by AEDPA - there is also no question that his state application was never ruled
on - at the time the U.S. District Court dismissed his habeas petition as time barred (both are
record based findings of fact). See Appendix C, D, E, in original. For those reasons, Alford
contends his claims were erroneously dismissed as untimely, without benefit of an analysis of
2244(d)(2)'s automatic tolling rights for state prisoners, (See) Artuz v. Bennet, 531 U.S. 4
(2001).
"In this case, Mr. Alford filed a motion to reconsider the state district courts denial of his
state habeas action at the same time he filed a Notice of Appeal on April 1st, 1998, within the
AEDPA's limitation period." The state court has never ruled on his motion to reconsider. See
Alford v. Cline. 696 F. Appx at 872. Therefore, it is [possible] that Mr. Alford's petition is not
time barred, (quoting) Alford v. Cline. 2020 U.S. Dist. Lexis 90209, *4, opinion by Sam A. Crow.
2

See Appendix C, D.
The U.S. District Court being fully aware of the possibility that Alford's petition may not be
time barred - took no further steps to definitively determine whether or not the petition was
legally barred under 2244(d)(1). Alford has been deprived of a Federal Court's ruling on the
automatic tolling effect of 2244(d)(2) or 2244(d)(1)(B) as to pending state applications. The
only fact left to ascertain is whether Alford's applications were properly filed. This can only be
decided by a U.S. District Court having the jurisdiction to do so. For tolling purpose under 2244
(d)(2) a Court determines only whether the petitioner properly filed for such State post
conviction relief. Truelove v. Smith. 9 Fed. Appx. 798 (10th Cir. 2001). The period that an
application for post conviction review is pending is not affected or "untolled" merely because a
petitioner files additional or overlapping petitions before it is complete. Rather, each time a
petitioner files a new habeas petition at the same or a lower level, the subsequent petition has
no effect on the already pending application. See Delhomme v. Ramirez. 340 F.3d 817, 820
(2003). The first round of review remains pending, and tolling does not end until that round is
complete. Id.
Both of Alford's motions (motion to reconsider and notice of appeal) were timely filed and
both are well known under 2244(d)(2) as tolling motions. See Emerson v. Johnson, 243 F. 3d
931, 935 (5th Cir. 2001)(limitation tolled when motion for reconsideration in state court
properly filed), also Williams v. Gibson. 237 F. 3d 1267,1269 (10th Cir. 2001)(limitation tolled,
because
3

Notice of Appeal properly filed). Failure of the U.S. District Court to apply the tolling and grace
period allowed by AEDPA is a depravation of Constitutional right.
In his petition Alford challenges the dismissal of his federal habeas petition, claiming that he
is entitled to both statutory and equitable tolling of the AEDPA's one year statute of limitation
for filing a federal habeas petition, See 28 U.S.C., 2244 (d)(1). The fact that Alford filed his
application within AEDPA's one year statute of limitations and applications were never ruled
on, should be sufficient to raise grave concern as to his right to one federal habeas petition and
right to statutory tolling on that one petition. This court expressly recognizes that "the
consistent practice in civil and criminal cases alike has been to treat timely motions for
reconsideration" as redering the original judgment nonfinal for purpose of appeal for as long as
the motion is pending. U.S. v. Healy, 376 U.S. 75 (1964); U.S. v. Dieter. 429 U.S. 6 (1976);
Hundley v. Pfuctze. 18 Kan. App. 2d 755 (1993)(Therefore, by filing a motion to reconsider, a
party tolls the running of the appeal period until that motion is decided); See K.S.A. 60-2103(a).
In Carey v. Saffold. 536 U.S. 214 ("until the application has achieved final resolution through
the state's post conviction procedures, by definition it remains pending). Federal Courts have
an independent obligation to determine whether a state prisoners applications are properly
filed, not whether there's a possibility that they were. See Morales v. Saboarin. 2004 U.S. Dist.
Lexis 3415 (N.Y.S.D.) headnote #3.
Alford has never waived his right to the automatic statutory tolling provided by 2244 (d)(2)
for state prisoners. See Ellis v. Harrison, 270 Fed. Appx 721 (9th Cir. 2008)(dismissing 2254
4

petition erroneous - abused discretion in deeming issue waived and not reaching merits of
tolling argument); Rodrigues v. Bennett. 303 F.3d 435 (2nd Cir. 2002)(Where district court did
not determine whether petitioner was entitled to statutory or equitable tolling). For the tolling
provision to appiy 2244(d)(2), requires only that the state application be properly filed. See
Artuz v. Bennett. 531 U.S. 4 (2001). Without further detemination as to disposition of state
applications (which would require the resolution of unsettled legal question) further
development is necessary. Alford is left presently with the lasting impression that his petition
quite possibly-if not likely, was not, in fact untimely filed. The court has recognized a Due
Process Claim under these circumstances. See Logan v. Zimmerman. 455 U.S. 422 (1992).
Inherent in 2244(d)(2) is the obligation of the federal court having jurisdiction to determine
if any pending applications in state court tolls limitation period under federal law. See Evans v.
Chavis, 546 U.S. 189 (2006)(To determine whether an application for post conviction relief was
pending in state court the U.S. Supreme Court has ruled that Federal Courts [must] determine
whether the petition was properly filed. Id 189. The only question that remains is whether the
motions are properly filed according to Federal Law. If the court concludes that the
applications are properly filed pursuant to Federal Law, Alford is statutorily entitled to tolling
under 2244(d)(2) See Weiblev v. Kaiser, 50 Fed. Appx. 399 (10th Cir. 2002) headnote #10.
Equitable Tolling
The court may also find it relevant to the AEDPA's analysis that Alford is bringing an "actual
innocence" claim. See e.g., Triestman v. United States. 124 F.3d 361, 377-380 (CA2 1997),
5

(discussing serious constitutional concerns that would arise if AEDPA were interpreted to bar
judicial review of certain innocence claims.) Pet. for writ of habeas corpus 20-22 (arguing that
congress intended actual innocence claims to have special status under AEDPA).
Even though a petitioner is not entitled to the automatic tolling mandated by 2244(d)(2)
under appropriate circumstances a petitioner may be entitled to equitable tolling. Alford had
presented both procedural and substantive actual innocence claims. The constitutional claims
are based not on his innocence, but rather on his contention that the effectiveness of his
counsel denied him the full panoply of protections afforded to criminal defendants by the
constitution. Alford may obtain review of his constitutional claims only if he falls within the
narrow class of cases, implicating a fundamental miscarriage of justice. His claim of innocence
of the charged crime is offered only to bring him within this narrow class of cases. See Schlup
v. Delo. 513 U.S. 298, 314-15 (1995).
The habeas court must make its determination concerning the petitioner's innocence in light
of all the evidence, and evidence tenably claimed to have been wrongly excluded or to have
become available only after trial. See Schlup 513 U.S. at 327-28. Alford presented "new
reliable evidence" in the form of two separate court ordered psychiatric evaluations, that was
never before the trial jury. Alford was precluded from adducing psychiatric evidence of his
inablility to form the specific intent neccessary to commit first degree murder, cf. Hughes v.
Mathews. 576 F.2d 1250 (7th Cir. 1998)(The court also held that the exclusion of psychiatric
evidence violated
6

I

petitioners U.S. Constitutional Amendment VI. and XIV rights, as it was relevant and
competent,
and its exclusion was unjustifiable.
In House v. Bell. 547 U.S. 518 (2006), the court made clear that the types of new reliable
evidence it had previously listed...were not intended to exhaust the possibilities. Id at 537.
Because a Schlup claim involves evidence the trial jury did not have before it, the inquiry
requires the federal court to assess how reasonable jurors would react to the overall, newly
supplemented record. 547 U.S. at 538-39. A showing of fundamental miscarriage of justice is
very difficult to make, because it requires a petitioner to demonstrate that he is actually
innocent of the crime for which he was convicted. 2008 U.S. Dist. Lexis 104245, 2008 WL
5397500 at 8. The court noted in Slack v. McDaniel. 529 U.S. 473 (2000), that procedurally
dismissed cases have never had a merits determination of the petition in which miscarriage of
justice could be demonstrated. |d at 488.
When an inmate's 2254 petition is untimely, a court must consider whether the inmate is
entitled to an equitable tolling of the AEDPA limitation period. Sigala v. Bravo, 656 F. 3d 1125
(10th Cir. 2011). Alford claims are entitled to consideration of the merits of the motion if the
claim meets the standard outlined in Murray v. Carrier, 477 U.S. 478 (1986). The ends of
justice demand consideration of merits of claim on successive petition where there is colorable
showing of factual innocence; second Habeas peititon should be remanded for consideration of
whether the ends of justice require consideration on the merits. Procedural default is excused x
7

■H-

under actual innocence exception where petitioners claim, if true, rendered conviction void
and
could not be legal cause of imprisonment. Gonzalez v. Abbott. 967 F. 2d 1499,1504 (11th Cir.
1992). The Tenth Circuit Court of Appeals denied Alford permission to file a second habeas
petition and never considered his actual innocence claim. App. C. If courts apply AEDPA in a
way that it bars consideration of an actual innocence claim, then AEDPA is unconstitutional.
The ends of justice would seem to demand a forum for the petitioners claim. Kuhlman v.
Wilson. 477 U.S. 436 (1986)(plurality opinion of Powell, J.)(noting the clear intent of congress
that successive habeas review should be available when the ends of justice so require.)
Conclusion
Where a doubt exists as to a petitioner's right to tolling the failure to conduct the proper
inquiry is a deprivation of his constitutional right to due process, (citation omitted). The court
held that the record based facts were sufficient to raise a possibility that Alford's petition was
not time barred. Alford v. Cline, 696 Fed. Appx 871, 872 (19th Cir. 2017); 2020 U.S. Cist. Lexis
90209, #4. Due process inheres in statutory rights. A denial of due process is a violation of the
Fifth Amendment. Alford has a right to a single Federal Habeas review of his state
imprisonment and denial of that right may violate the Fifth Amendment's assurance of due
process. There are no other avenues of judicial review available for Alford's claim that he was
denied tolling rights under 2244(d)(2) and denied consideration of equitable tolling, claiming
he was legally innocent as a result of previously unavailable new evidence.
8

4

•

Congress gives the court an alternative to denial of petitions involving factual issues by
providing that the Supreme Court or any of its justices or any Circuit Judge may decline to
entertain an application for a Writ of Habeas Corpus and may transfer the application for a
hearing and determination to the District Court having Jurisdiction. See Dallin H. Oaks. The
Original Writ of Habeas Corpus, 1962 Sup. Ct. Rev. 153.
If proof of the facts neccessary to determine statutory and or equitable tolling - are
inaccessible its in this court's power and usually fairer to transfer to the district court having
jurisdiction. See cf. In re Davis, 557 U.S. 952, 130 S.Ct. at 2 (2009)(emphasis), also See 28 U.S.C.
2241 (b). The lower courts erroneously dismissed Alford's petition as time barred. Then
refused to allow forum to disprove that dismissal.
The Original Writ is the last and only procedure device to prevent injustice and vindicate
Alford's right to due process. Alford has a due process right to a proper inquiry into his tolling
rights, especially here where the district court acknowledged that petition may not have been
time barred. These actions fall under the protection of the Suspension clause. A transfer to
the U.S. District Court of Kansas would remedy any due process violations and eliminate any
chance for constitutional implications.
Alford prays this Honorable Court transfer his petition to the district court for a hearing and
determination as to statutory and equitable tolling. The case is comparable to the super
precedent this court set in In re Davis. 557 U.S. 952 (2009) petitioner cites as leading authority.
Respectfully Submitted
&
Brent L. Alford, pro se

9

